April 26, 2021

Orrick, Herrington & Sutcliffe LLP

Columbia Center
1152 15th Street, N.W.
Washington, DC 20005-1706
+1 202 339 8400

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Sellers v. McDonough, No. 20-1148

orrick.com

Mel Bostwick

E mbostwick@orrick.com
D +1 202 339 8483
F +1 202 339 8500

Dear Mr. Harris,
Pursuant to this Court’s order dated March 19, 2020, petitioner in the above-captioned case
respectfully requests that the Court delay distribution of the petition for a writ of certiorari
for 7 days. The petition is currently scheduled for distribution no earlier than May 11,
2021. If this Court were to grant the requested 7-day delay, distribution of the petition
would occur no earlier than May 18, 2021. The conference date would then be June 3, 2021.
Petitioner requires the additional time to file his reply due to the logistical difficulties and
dislocations caused by the COVID-19 pandemic, including the need to coordinate among
several attorneys across separate law offices, all operating remotely. Counsel for
Respondent has authorized me to represent that Respondent does not object to the
requested delay in distribution.
Very truly yours,

Mel Bostwick
Counsel of Record
for Petitioner Robert M. Sellers

cc:

Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
Office of the Solicitor General
Washington, DC 20530

